June 28, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Medicare Could Be Paying Twice for Prescription Drugs for Beneficiaries in
                Hospice (A-06-10-00059)


The attached final report provides the results of our nationwide review of prescription drugs for
beneficiaries in hospice for the period January 1 through December 31, 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-06-10-00059 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




MEDICARE COULD BE PAYING TWICE
  FOR PRESCRIPTION DRUGS FOR
   BENEFICIARIES IN HOSPICE




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-06-10-00059
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Hospice care is a Medicare Part A benefit, and prescription drugs related to beneficiaries’
terminal illnesses are covered under the per diem payments made to hospice organizations;
therefore, Medicare Part D should not pay for them. When Part D pays for these drugs, the
Medicare program, in effect, is paying twice. In previous investigative and audit work, the
Office of Inspector General identified duplicate payments made by Part D for prescription drugs
that should have been covered under the per diem payments.

To be eligible for Medicare hospice care, a beneficiary must be entitled to Part A of Medicare
and be certified as terminally ill (i.e., having a medical prognosis that life expectancy is 6 months
or less if the disease runs its normal course). Hospice is an approach to caring for terminally ill
individuals through palliative care rather than traditional medical care and curative treatment.
The goal of palliative care is to improve an individual’s quality of life through pain management
and symptom relief.

The Medicare hospice benefit has four levels of care, and each level has an all-inclusive per diem
payment. The Centers for Medicare & Medicaid Services (CMS) makes the per diem payment to
a hospice organization for each day that a beneficiary is in hospice care, regardless of the number
of services furnished. Drugs used primarily for symptom control and the relief of pain related to
the individual’s terminal illness are covered under the hospice benefit, and the cost of providing
these drugs is included in the per diem rate. As a result, hospice organizations should pay the
dispensing pharmacies for these drugs.

Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act by establishing the Medicare Part D voluntary
prescription drug benefit. Under the Medicare Part D program, which began January 1, 2006,
individuals entitled to benefits under Medicare Part A or enrolled in Medicare Part B may obtain
voluntary coverage for prescription drugs. Prescription drug coverage is offered by
nongovernmental entities known as prescription drug plan sponsors (sponsors), which contract
with CMS. CMS makes estimated monthly subsidy payments to sponsors for each enrolled
beneficiary. Sponsors contract with pharmacies to provide prescription drugs to enrolled
beneficiaries and pay the pharmacies when they dispense prescription drugs to the beneficiaries.

Beneficiaries enrolled in a Medicare Part D prescription drug plan are responsible for
copayments for the prescription drugs they receive. When these beneficiaries fill covered
prescriptions under Part D, sponsors must submit prescription drug event (PDE) data to CMS.
PDE data include drug cost and payment information that enables CMS to administer the Part D
benefit, but the data do not include diagnosis-related information.

In an October 2010 memorandum to all Medicare Part D sponsors, CMS said that sponsors may
be paying for drugs that should be the responsibility of hospice organizations.




                                                  i
Hospice beneficiaries generally experience common symptoms during the end of life, regardless
of their terminal diagnoses. These symptoms include pain, nausea, constipation, and anxiety.
Four common categories of prescription drugs are typically used to treat these symptoms, and
hospice organizations should generally pay for these drugs because the drugs are covered under
the hospice per diem payments. The categories are: analgesics, antinauseants, laxatives, and
antianxiety drugs.

Additionally, we identified prescription drugs that are commonly used to treat two terminal
diagnoses: chronic obstructive pulmonary disease (COPD) and amyotrophic lateral sclerosis
(ALS). These drugs should be covered under the per diem payments made to hospice
organizations. Various drugs are used to treat COPD; only one prescription drug is commonly
used to treat ALS.

OBJECTIVE

Our objective was to determine whether Medicare Part D paid for prescription drugs that likely
should have been covered under the per diem payments made to hospice organizations.

SUMMARY OF FINDING

During calendar year 2009, Medicare Part D paid for prescription analgesic, antinausea, laxative,
and antianxiety drugs, as well as prescription drugs used to treat COPD and ALS, that likely
should have been covered under the per diem payments made to hospice organizations. As a
result, the Medicare program could be paying twice for prescription drugs for hospice
beneficiaries: once under the Medicare Part A hospice per diem payments and again under
Medicare Part D. Hospice beneficiaries could also be unnecessarily paying copayments for
prescription drugs under Part D.

We identified 198,543 hospice beneficiaries who received 677,022 prescription drugs through
the Medicare Part D program that potentially should have been covered under the per diem
payments made to hospice organizations. Part D paid pharmacies $33,638,137 for these
prescription drugs, and beneficiaries paid $3,835,557 in copayments. We contacted the Part D
sponsors for five plans and found that, during our audit period, they did not have procedures to
identify prescription drugs that should have been covered under the per diem payments.

RECOMMENDATIONS

We recommend that CMS:

   •   educate sponsors, hospices, and pharmacies that it is inappropriate for Medicare Part D to
       pay for drugs related to hospice beneficiaries’ terminal illnesses;

   •   perform oversight to ensure that Part D is not paying for drugs that Medicare has already
       covered under the per diem payments made to hospice organizations; and




                                                ii
   •   require sponsors to develop controls that prevent Part D from paying for drugs that are
       already covered under the per diem payments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS concurred with two of our three recommendations. CMS did not concur with our second
recommendation that it perform oversight to ensure that Part D is not paying for drugs that
Medicare has already covered under the per diem payments made to hospice organizations.
CMS stated that it would need conclusive evidence that there is such an issue before making
payment adjustments and that implementing our methodology for an ongoing oversight program
would be difficult and costly. CMS indicated that, despite our developing and implementing an
elaborate research methodology, we were unable to definitively determine that duplicate
payments were made. However, CMS stated that it would consider whether it is possible to
develop a cost-effective methodology that will yield conclusive findings suitable to make Part D
plan payment adjustments. CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

In our second recommendation, we did not recommend that CMS make payment adjustments or
implement our methodology. We were suggesting that, because of the potential cost savings to
Medicare, CMS do more to address this issue. Our methodology was complex, but CMS and
hospice industry officials endorsed it and assisted us in its development. Our prior audit work, in
which we worked with hospice medical and pharmacy staff, proved that duplicate payments were
made. This audit shows that duplicate payments are potentially being made on a national level
and that the issue warrants CMS’s increased attention.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicare Hospice Benefit.....................................................................................1
              National Hospice and Palliative Care Organization .............................................1
              Medicare Part D Program .....................................................................................2
              Centers for Medicare & Medicaid Services Efforts To Notify Sponsors
               About Duplicate Payments ................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          FEDERAL REQUIREMENTS .........................................................................................5

          MEDICARE PART D AND BENEFICIARIES PAID MORE THAN
           $30 MILLION FOR DRUGS IN FOUR COMMON CATEGORIES
           THAT POTENTIALLY SHOULD HAVE BEEN COVERED UNDER
           MEDICARE PART A.....................................................................................................5

          MEDICARE PART D AND BENEFICIARIES PAID MORE THAN
           $7 MILLION FOR DIAGNOSIS-SPECIFIC DRUGS
           THAT SHOULD HAVE BEEN COVERED UNDER MEDICARE PART A ............6

          SOME SPONSORS DID NOT HAVE PROCEDURES TO IDENTIFY
           DRUGS PAID BY MEDICARE PART D THAT POTENTIALLY
           SHOULD HAVE BEEN COVERED UNDER MEDICARE PART A .........................6

          CONCLUSION .................................................................................................................7

          RECOMMENDATIONS ..................................................................................................7

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .....................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................8

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


                                                                    iv
                                        INTRODUCTION

BACKGROUND

Hospice care is a Medicare Part A benefit, and prescription drugs related to beneficiaries’
terminal illnesses are covered under the per diem payments made to hospice organizations;
therefore, Medicare Part D should not pay for them. When Part D pays for these drugs, the
Medicare program, in effect, is paying twice.

In previous investigative and audit work, the Office of Inspector General identified duplicate
payments made by Medicare Part D for prescription drugs that should have been covered under
the per diem payments made to hospice organizations. For example, a review of a large,
nonprofit hospice organization that appeared to have strong controls for ensuring that it paid for
the appropriate prescription drugs found that Medicare Part D paid for some prescription drugs
for which the hospice organization should have paid.

Medicare Hospice Benefit

Hospice is an approach to caring for terminally ill individuals through palliative care rather than
traditional medical care and curative treatment. The goal of palliative care is to improve an
individual’s quality of life through pain management and symptom relief. Hospice focuses on
helping individuals be comfortable by addressing physical and emotional pain. Hospice care
may be provided to beneficiaries residing in their homes or elsewhere, such as a nursing facility.

The Tax Equity and Fiscal Responsibility Act of 1982 created the Medicare hospice benefit. To
be eligible for Medicare hospice care, a beneficiary must be entitled to Part A of Medicare and
be certified as terminally ill (i.e., having a medical prognosis that life expectancy is 6 months or
less if the disease runs its normal course). When a beneficiary elects hospice care, a hospice
organization assumes the responsibility for medical care related to the beneficiary’s terminal
illness and related conditions.

The Medicare hospice benefit has four levels of care, and each level has an all-inclusive per diem
payment. The Centers for Medicare & Medicaid Services (CMS) makes the per diem payment to
a hospice organization for each day that a beneficiary is in hospice care, regardless of the number
of services furnished. Drugs used primarily for symptom control and the relief of pain related to
the individual’s terminal illness are covered under the hospice benefit, and the cost of providing
these drugs is included in the per diem rate. As a result, hospice organizations should pay the
dispensing pharmacies for these drugs.

National Hospice and Palliative Care Organization

The National Hospice and Palliative Care Organization (NHPCO) represents approximately
70 percent of hospice organizations nationwide and is the largest nonprofit membership
organization representing hospice and palliative care organizations and professionals in the
United States. NHPCO states on its Web site that it is committed to improving end-of-life care
and expanding access to hospice care.


                                                  1
Medicare Part D Program

Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act by establishing the Medicare Part D voluntary
prescription drug benefit. Under Part D, which began January1, 2006, individuals entitled to
benefits under Medicare Part A or enrolled in Medicare Part B may obtain voluntary coverage
for prescription drugs.

Prescription drug coverage is offered by nongovernmental entities known as prescription drug
plan sponsors (sponsors), which contract with CMS. CMS makes estimated monthly subsidy
payments to sponsors for each enrolled beneficiary. Sponsors contract with pharmacies to
provide prescription drugs to enrolled beneficiaries and pay the pharmacies when they dispense
prescription drugs to the beneficiaries.

Beneficiaries enrolled in a Medicare Part D prescription drug plan are responsible for
copayments for the prescription drugs they receive. When these beneficiaries fill covered
prescriptions under Part D, sponsors must submit prescription drug event (PDE) data to CMS.
PDE data include drug cost and payment information that enables CMS to administer the Part D
benefit, but the data do not include diagnosis-related information or any indication that the
prescription was related to hospice care.

Centers for Medicare & Medicaid Services Efforts To Notify Sponsors
About Duplicate Payments

In an October 2010 memorandum to all sponsors, CMS said that sponsors may be paying for
drugs that should be the responsibility of hospice organizations. In April 2011, CMS issued a
Call Letter to all sponsors saying that because hospice care is a Medicare Part A benefit,
prescription drugs related to beneficiaries’ terminal illnesses are covered under the per diem
payment to hospice organizations, and Medicare Part D should not pay for them. Each month,
CMS sends to all sponsors beneficiary data that include information indicating whether a
beneficiary has elected hospice care.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare Part D paid for prescription drugs that likely
should have been covered under the per diem payments made to hospice organizations.

Scope

Our review focused on Medicare Part A hospice claims and Medicare Part D PDE records with
dates of service during calendar year (CY) 2009. 1
1
  We obtained Medicare Part A hospice and Medicare Part D PDE records from the Services Tracking, Analysis,
and Reporting System (STARS) on August 3, 2010. STARS is a PC-based system used for querying and reporting
information from the national data warehouse, which contains all Medicare fee-for-service claims for the most
recent 3 years.

                                                      2
Our objective did not require an assessment of internal controls related to hospice organizations
or Medicare Part D.

We performed our audit work from March 2010 to August 2011.

Methodology

Based on discussions with CMS and NHPCO officials and on our research and previous work,
we learned that hospice beneficiaries generally experience common symptoms during the end of
life regardless of their terminal diagnoses. These symptoms include pain, nausea, constipation,
and anxiety. Four common categories of prescription drugs are typically used to treat these
symptoms: analgesics, 2 antinauseants, laxatives, and antianxiety drugs.

Prescriptions written for drugs in the four common categories are not always related to a hospice
beneficiary’s terminal illness. For example, a hospice beneficiary could fall and break her hip
and get a prescription analgesic that was unrelated to her terminal illness. Medicare Part D
should pay for this drug because it is not related to the beneficiary’s terminal illness. However,
the prescription drugs in the four common categories, when prescribed for hospice beneficiaries,
are used primarily for palliative care. Thus, hospice organizations should generally pay for these
drugs because the hospice per diem payments are intended to cover their costs.

With help from CMS, NHPCO, and hospice officials, we identified 16 American Hospital
Formulary Service (AHFS) drug classifications that could contain prescription drugs used to treat
common end-of-life symptoms. 3 With assistance from CMS, we reviewed each prescription
drug in the 16 classifications and identified 469 prescription analgesic, antinausea, laxative, and
antianxiety drugs used to treat these symptoms.

We identified approximately 1.1 million beneficiaries who had Medicare Part A hospice claims
with dates of service that started and ended during CY 2009. 4 Of these beneficiaries, 437,121
had approximately 2.8 million Medicare Part D PDE records that corresponded to the 469
prescription drugs during the year. To determine which prescription drugs should have been
covered under the per diem payments made to hospice organizations, we included only those
Medicare Part D PDE records with fill dates during the beneficiaries’ hospice dates of service.

Additionally, for the 1.1 million beneficiaries, we selected 2 hospice diagnoses for more specific
analyses: chronic obstructive pulmonary disease (COPD) and amyotrophic lateral sclerosis
(ALS). We selected COPD because we noted numerous prescriptions for inhalers in the Medicare
Part D PDE records and because it was one of the more common diagnoses in the CY 2009

2
 Chemotherapy drugs are included in the analgesic category. They are used palliatively for hospice patients to
shrink tumors, thereby alleviating pain.
3
  The AHFS classification categorizes drugs with similar pharmacologic, therapeutic, and/or chemical characteristics
into a four-tier hierarchy.
4
 While these beneficiaries could have received hospice care before or after CY 2009, we included only CY 2009
claims for hospice services.


                                                         3
hospice claims. We selected ALS because only one drug is used for its treatment. Based on our
research of the diagnoses and discussions with CMS officials, we identified 8 AHFS drug
classifications that included 54 drugs prescribed for COPD and 1 AHFS drug classification for the
1 drug prescribed for ALS. CMS officials said that Part D should not pay for these drugs
prescribed for hospice beneficiaries who have a principal diagnosis of COPD or ALS.

During the year, almost 30,000 hospice beneficiaries with a principal diagnosis of COPD had
approximately 246,000 Medicare Part D PDE records that corresponded to the 54 COPD drugs. 5
Additionally, more than 500 hospice beneficiaries with a principal diagnosis of ALS had
approximately 2,200 Part D PDE records that corresponded to the 1 ALS drug. 6 Again, to
determine which prescription drugs should have been covered under the per diem payments
made to hospice organizations, we then included only those Part D PDE records with fill dates
during the beneficiaries’ hospice dates of service.

We also spoke with the Medicare Part D sponsors for five plans regarding their procedures for
identifying prescription drugs that hospice organizations should provide.

We assessed the reliability of STARS data by electronically testing required data elements and
by checking the basic reasonableness of the data against another source. We determined that
these data are sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATIONS

During CY 2009, Medicare Part D paid for prescription analgesic, antinausea, laxative, and
antianxiety drugs, as well as prescription drugs used to treat COPD and ALS, that likely should
have been covered under the per diem payments made to hospice organizations. As a result, the
Medicare program could be paying twice for prescription drugs for hospice beneficiaries: once
under the Medicare Part A hospice per diem payments and again under Medicare Part D.
Hospice beneficiaries could also be unnecessarily paying copayments for prescription drugs
under Part D.

We identified 198,543 hospice beneficiaries who received 677,022 prescription drugs through
the Medicare Part D program that potentially should have been covered under the per diem
payments made to hospice organizations. Part D paid pharmacies $33,638,137 for these
prescription drugs, and beneficiaries paid $3,835,557 in copayments. We contacted the Part D

5
 We obtained the Medicare Part D PDE records related to COPD beneficiaries from the STARS on November 10,
2010.
6
 We obtained the Medicare Part D PDE records related to ALS beneficiaries from the STARS on November 10,
2010.

                                                     4
sponsors for five plans and found that, during our audit period, they did not have procedures to
identify prescription drugs that should have been covered under the per diem payments.

We present our findings for prescription analgesic, antinausea, laxative, and antianxiety drugs
first, followed by our findings for prescription drugs used to treat COPD and ALS.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 418.202(f), covered hospice services include drugs and biologicals “used
primarily for the relief of pain and symptom control related to the individual’s terminal
illness ....” Thus, when explaining the “relationship between the requirement that hospices must
provide drugs for patients and the Medicare Part D benefit” in the preamble to CMS’s final rule
revising the hospice conditions of participation, CMS stated that:

       Hospices are required by section 1861(dd)(1)(E) of the Act to furnish all drugs
       and supplies related to the terminal illness and related conditions. Hospices may
       not expect patients to obtain drugs related to the terminal illness and related
       conditions through the Medicare Part D benefit. If a patient requires drugs that
       are not related to the terminal illness and related conditions, then it may be
       possible for the patient to obtain those unrelated drugs through the Medicare
       Part D benefit [73 Fed. Reg. 32088, 32145 (June 5, 2008)].

Accordingly, in the final rule, CMS included a condition of participation at 42 CFR § 418.106
stating that “drugs and biologicals related to the palliation and management of the terminal
illness and related conditions, as identified in the hospice plan of care, must be provided by the
hospice while the patient is under hospice care.”

MEDICARE PART D AND BENEFICIARIES PAID MORE THAN $30 MILLION FOR
DRUGS IN FOUR COMMON CATEGORIES THAT POTENTIALLY SHOULD HAVE
BEEN COVERED UNDER MEDICARE PART A

During CY 2009, Medicare Part D paid pharmacies $26,980,792 and beneficiaries paid
$3,092,554 in copayments for prescription analgesic, antinausea, laxative, and antianxiety drugs
that potentially should have been covered under the per diem payments made to hospice
organizations. We identified 186,156 hospice beneficiaries who received 623,509 prescription
drugs in the 4 common categories.

The table on the next page shows the number of Medicare Part D PDE records and the total
amount of payments associated with each of the four common prescription drug categories.




                                                 5
      Number of Medicare Part D Prescription Drug Event Records and Amounts Paid
                         by Medicare Part D and Beneficiaries

                       Number of Medicare Part D                                                Amount of
      Drug              Prescription Drug Event                 Amount of Medicare             Beneficiary
     Category                   Records                          Part D Payments               Copayments
     Analgesics 7                  428,084                            $21,904,799               $2,348,515
    Antinausea                      95,137                              2,908,456                  409,606
    Laxatives                       76,404                              1,888,267                  252,688
    Antianxiety                     23,884                                279,270                   81,745
       Total                       623,509                            $26,980,792               $3,092,554

MEDICARE PART D AND BENEFICIARIES PAID MORE THAN $7 MILLION FOR
DIAGNOSIS-SPECIFIC DRUGS THAT SHOULD HAVE BEEN COVERED UNDER
MEDICARE PART A

We analyzed three categories of prescription drugs used to treat COPD: inhaled drugs, drugs
used to treat complications from COPD, and drugs used for people with a genetic predisposition
to COPD. During CY 2009, Medicare Part D paid pharmacies $6,085,347 and beneficiaries paid
$693,432 in copayments for prescription drugs in these categories that should have been covered
under the per diem payments made to hospice organizations. We identified 12,169 beneficiaries
who had been admitted to hospice care for COPD and who had received 52,861 prescription
drugs in the 3 categories.

We analyzed one prescription drug used to treat ALS. During CY 2009, Medicare Part D paid
pharmacies $571,998 for this prescription drug and beneficiaries paid $49,571 in copayments
that should have been covered under the per diem payments made to hospice organizations. We
identified 218 beneficiaries who had been admitted to hospice care for ALS and who had
received 652 prescriptions of the drug.

SOME SPONSORS DID NOT HAVE PROCEDURES TO IDENTIFY DRUGS PAID BY
MEDICARE PART D THAT POTENTIALLY SHOULD HAVE BEEN COVERED
UNDER MEDICARE PART A

We contacted the sponsors for five Medicare Part D plans. These sponsors submitted more than
40 percent of the Medicare Part D PDE records in the four common prescription drug categories
that potentially should have been covered under the per diem payments made to hospice
organizations. According to sponsor officials, they did not have procedures during our audit
period to identify prescription drugs that hospice organizations should have provided. However,
two of the sponsors said that they were conducting postpayment reviews to (1) identify hospice
beneficiaries through the beneficiary data that CMS provides and (2) determine whether certain
prescription drugs should have been covered under the per diem payments. One of the sponsors
started postpayment reviews of prescription analgesics in CY 2010; the other sponsor started

7
  This total includes 14,519 prescriptions for chemotherapy drugs that potentially should have been provided under
the Medicare Part A hospice benefit. Medicare Part D paid pharmacies $6,940,295 for these prescription drugs, and
beneficiaries paid $843,164 in copayments.

                                                        6
postpayment reviews of palliative drug prescriptions in CY 2011. Further, one of these sponsors
is planning to implement a program under which pharmacists will be alerted when an analgesic
drug prescription is being submitted for a hospice beneficiary. The pharmacist could then inform
the individual submitting the prescription that it might be covered by the beneficiary’s hospice
organization.

CONCLUSION

The Medicare program could be paying twice for prescription drugs for hospice beneficiaries:
once under the Medicare Part A hospice per diem payments and again under Medicare Part D.
Hospice beneficiaries could also be unnecessarily paying copayments for prescription drugs
under Part D. CMS sends beneficiary data monthly to all Part D sponsors and has informed them
that they may be paying for drugs that should be covered under the per diem payments made to
hospice organizations. The sponsors we contacted did not consistently use the beneficiary data
to determine whether prescription drugs were related to hospice care and should have been
covered under the per diem payments. Additionally, PDE records submitted to CMS did not
indicate whether prescriptions were related to hospice care.

RECOMMENDATIONS

We recommend that CMS:

   •   educate sponsors, hospices, and pharmacies that it is inappropriate for Medicare Part D to
       pay for drugs related to hospice beneficiaries’ terminal illnesses;

   •   perform oversight to ensure that Part D is not paying for drugs that Medicare has already
       covered under the per diem payments made to hospice organizations; and

   •   require sponsors to develop controls that prevent Part D from paying for drugs that are
       already covered under the per diem payments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS concurred with two of our three recommendations. CMS did not concur with our second
recommendation that it perform oversight to ensure that Part D is not paying for drugs that
Medicare has already covered under the per diem payments made to hospice organizations.
CMS stated that it would need conclusive evidence that there is such an issue before making
payment adjustments and that implementing our methodology for an ongoing oversight program
would be difficult and costly. CMS indicated that, despite our developing and implementing an
elaborate research methodology, we were unable to definitively determine that duplicate
payments were made. However, CMS stated that it would consider whether it is possible to
develop a cost-effective methodology that will yield conclusive findings suitable to make Part D
plan payment adjustments. CMS’s comments are included in their entirety as the Appendix.




                                               7
OFFICE OF INSPECTOR GENERAL RESPONSE

In our second recommendation, we did not recommend that CMS make payment adjustments or
implement our methodology. We were suggesting that, because of the potential cost savings to
Medicare, CMS do more to address this issue. Our methodology was complex, but CMS and
hospice industry officials endorsed it and assisted us in its development. Our prior audit work, in
which we worked with hospice medical and pharmacy staff, proved that duplicate payments were
made. This audit shows that duplicate payments are potentially being made on a national level
and that the issue warrants CMS’s increased attention.




                                                8
APPENDIX
                                                                                                                          Page 1 of3



APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 



   / ... ...t.,
           ·~



  { ~E.               DEPARTMENT OF H EALTIi« HUMAN SERVICES                                   CentMS for M<ldicare & Medic$<! $ervicf!$


     •..
   " ' .,
                                                                                               Administrlltor
                                                                                               Washington, DC 20201




                DATE,            MAY 0 3 1011
                TO: 	           Daniel R. Levinson 

                                Inspector General 


                FROM:          \J~~~cr
                                Acting A~istrator

                SUBJECT: 	 Office of Inspeclor General (OrG) Draft Report: Medicare Could Be Paying
                           Twice for Prescription Drug~Ior Beneficiaries in Hospice (A-06-1 0-00059)


                The Centers for Medicare & Medicaid Services (eM S) appreciates the opportunity to review and
                commenl on the Office of Ins peel or General (DIG) draft report entitled, "Medicare Could Be
                Paying Twice jar Prescription Drugs jor Beneficiaries in Hospice. " The purpose o f this report
                was to determine whether Medicare Part D paid for prescription drugs that li kely should have
                been covered under the per diem payments made to hospice organizations.

                Titlc I of the Medicare Prescription Drug, Improvement, and Modernization Act o f 2oo3
                amended Title XVIII of the Social Security Act (thc Act) by establ ishing the Mcdicare Part 0
                prescription drug benefi t. Under Part 0 , which began January 1,2006, individuals entitled to
                benefits under Medicare Part A or enrolled in Medicarc Part B may obtain drug coverage. eMS
                contracts with prescription drug plans and Medicare Advantage plans to offer prescription drug
                benefits to eligible individuals under Medicare Part D. Every time a beneficiary tills a
                prescription covered under Part 0, the sponsor must submit prescription drug event (POE) data,
                including dru g cost and payment inronnation to eMS.

                Hospice program~ , as specified in section 1861 (dd ) o f the Act and in Federal regulations at Part
                418, must prov ide individuals under hospice care with drugs and biologicals related to the
                palliation and symptom management o f the tenni na l illness as defined in the hospice plan or
                care. The only drugs covered by thc hospicc program arc those used pri marily for relie f of pain
                and symptom control related to Ihe individual's lenninal illness. However. because hospice care
                is a Medicare Part A bene fi t, the drugs provided by the hospice and covered under the Medicare
                per diem payment 10 the hospice program arc not covcrcd under Part O.

                  In the last cuuple of years, eMS has taken action to prevent Part 0 payment for drugs that shuuld
                  be the responsibility or the Medicare hospice provider. This included issuing a memorandum on
                  October 22, 20 I 0, which directed all Part 0 plan sponsors to communicate with thcir nelwork
                  pharmacies regarding efforts to ensure that Mcdicare covered hospice drugs are not billed to Part
                  D. Subsequently, in the 2012 Call Leiter, issued in April 201 1, we clari fied that all Part 0
                                                                                                       Page 2 of3




Page 2 - Daniel R. Levinson


sponsors currently had the ability to identify any Medicare enrollees who have elected hospice.
We noted that eMS sends beneficiary-kvel hospice data to all Part D sponsors on daily
transaction rep ly reports (TRR) sent at the time of the beneficiary's enrollment and subsequently
whenever the hospice information changes. The TRRs include a hospice indicator, a hospice start
date and, if applicable, hospice termination date. We indicated that sponsors need to ensure their
claims processor is notified of an enrollee's hospice election and that processes are in place that
can prevent Part 0 payment for hospice drugs. This requirement was effective with the 2012
contract year.

In the 20 12 Call Letter, we noted that we had received requests for further guidance regarding
how sponsors should identify hospice drugs and questioning whether sponsors should establish a
point-of-sale prior authorization edit or to pay the claim at point-of-sale and make a retrospective
Part A vs. Part 0 payment detennination. Given our concerns that Medicare Part D enrollees'
access to Part 0 drugs is not inappropriately restricted, we suggested that unless the plan has
infonnation available at point-of-sale to detennine payment responsibi lity, sponsors should pay
the claims for drugs furnished to members enrolled in a hospice program that may be covered
under the hospice benefit and retrospectively detennine payment responsibility.

T«hnical Comment

Although the D IG notes in the draft report that prescriptions fo r drugs in the four categories of
drugs typical ly used for the treatment of hospice patients' symptoms also may be prescribed for
uses unrelated to the individual's tenninal illness, other complexities affa:ting the detennination
of payment responsibili ty are not addresse<l. The majority of hospice patients receive their care
at home and thus use retail or mail order pharmacies. Since the prescription does not contain a
diagnosis, the phannacy does not know the diagnosis, and while the Pan 0 sponsor knows and
can infonn the pharmacy ofthe individual 's hospice election, unless the drug was previously
cstablished as a hospice-related drug, follow-up is necessary to detennine whether the hospice or
Part D has payment respansihility.

We appreciate the OTO 's efforts in working with eMS in identifying vulnerabilities in the
Medicare program. Our response to each of the OIG recommendations follows.

DIG Recommendation

The OIG recommends eMS educate sponsors, hospices, and phannacies that it is inappropriate
for Medicare Part 0 to pay for drugs related to hospice beneficiaries' tenninal illnesses.

CMS Response

CMS concurs with th is recommendation. CMS agrees with the OIG's goal to prevent Part 0
payment for drugs that are re lated to a hospice patient'S tenninal illness and, therefore, ineluded
in the Medicare per d iem payments to the hospice. CMS will remind Part D sponsors and
hospice organizations oflheir payment responsibilities and will communicate through Part 0
sponsors to pharmacies regarding their role in efforts to ensure Medicare hospice drugs arc not
billed to Part O.
                                                                                                   Page 3 of3




Page 3 - Daniel R. Levinson


OIG Recommendation

OlG recommends eMS perfonn oversight to ensure that Part D is not paying for drugs that
Medicare has already covered under the per diem payments made to hospice organizations.

eMS Response

We do not concur with the OIG's recommendation. We agree that it is possible Part D may have
paid for drugs that were already covered under the per diem payments made to hospice
organizations, but we would need conclusive evidence that such an issue exists before making
payment adjustments. Despite developing and implementing an elaborate research methodology,
OlG was not able to definitively detennine that duplicate payments were made. Given the
complexity of OIG's methodology, it would be difficult and costly for eMS to implement this
methodology for an on-going oversight program, especially considering that the results would
not be sufficiently conclusive to be actionable. However, eMS will examine the issue further by
considering whether it is possible to develop a cost-effective methodology that will yield
conclusive findings suitable to make Part D plan payment adjustments.

OIG Recommendation

The OlG recommends eMS require sponsors to develop controls that prevent Part D from
paying for drugs that are already covered in the per diem payments.

eMS Response

eMS concurs with this recommendation. As we have stated earlier, eMS already issued
guidance to prevent Part D payment for drugs that should be the responsibility of the Medicare
hospice provider. Specifically, we indicated that sponsors need to ensure their claims processor
is notified of an enrollee's hospice election and that processes are in place to prevent Part D
payment for hospice drugs. This requirement was effective with the 2012 contract year.

Again, we appreciate the opportunity to comment on this draft report and look forward to
working with OIG on this and other issues.
